HHS/OIG - Audit,"Review of Medicare Outlier Payments at Rhode Island Hospital for Fiscal Year 1999,"(A-01-01-00527)
Department of Health and Human Services
"Review of Medicare Outlier Payments at Rhode Island Hospital for Fiscal Year 1999," (A-01-01-00527)
February 27, 2002
Complete
Text of Report is available in PDF format (2.22 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Fiscal Year 1999 Medicare outlier payments to Rhode Island Hospital
(RIH) were reimbursed in accordance with Medicare laws and regulations.  Our review determined that RIH received $105,686
in overpayments relating to services that were not ordered by a physician, were not properly documented, or resulted from
a clerical billing error.  We recommended that RIH: (1) review documentation requirements with hospital staff to ensure
that all services provided are appropriately documented in the medical record in accordance with standards of practice
and Medicare laws and regulations, emphasizing the need to document physician orders; (2) improve its controls over the
billing process to ensure that only services that are ordered by a physician and are supported by appropriate documentation
are billed; (3) strengthen its controls related to the detection and prevention of improper charges for open service
codes; and (4) return to the appropriate fiscal intermediary, the overpayments associated with services identified as not
properly documented or not ordered by a physician.  The hospital has issued an adjustment to reimburse Medicare for
the overpayment related to a clerical error.  The RIH generally concurred with our findings and identified steps they
have taken, and plan to take to address our recommendations.